Pet. App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES
OF AMERICA,
Plaintiff-Appellee,

No. 17-10519
D.C. No.
4:14-cr-00580-PJH-2

v.

MEMORANDUM*

JAVIER SANCHEZ,

(Filed Jan. 25, 2019)

Defendant-Appellant.
UNITED STATES
OF AMERICA,
Plaintiff-Appellee,

No. 17-10528
D.C. No.
4:14-cr-00580-PJH-3

v.
GREGORY CASORSO,
Defendant-Appellant.
UNITED STATES
OF AMERICA,
Plaintiff-Appellee,

No. 18-10113
D.C. No.
4:14-cr-00580-PJH-1

v.
MICHAEL MARR,
Defendant-Appellant.
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

Pet. App. 2
Appeal from the United States District Court
for the Northern District of California
Phyllis J. Hamilton, Chief Judge, Presiding
Argued and Submitted January 16, 2019**
San Francisco, California
Before: CLIFTON and FRIEDLAND, Circuit Judges,
and ADELMAN,*** District Judge.
Defendants Michael Marr, Javier Sanchez, and
Gregory Casorso appeal their jury convictions for conspiring to suppress and restrain competition by rigging
bids in property foreclosure sales in violation of Section
1 of the Sherman Antitrust Act, 15 U.S.C. § 1, which
prohibits “contract[s], combination[s] . . . , or conspirac[ies]” that unreasonably “restrain[ ] trade or
commerce.”
1. We are bound by United States v. Manufacturers’ Ass’n of Relocatable Bldg. Industry, 462 F.2d 49
(9th Cir. 1972). See Miller v. Gammie, 335 F.3d 889, 893
(9th Cir. 2003) (en banc) (holding that a three judge
panel of this court is bound by prior circuit law unless
“the reasoning or theory of [the] prior circuit authority
is clearly irreconcilable with the reasoning or theory of
intervening higher authority”). In Manufacturers’,
we held that applying the per se rule in a criminal
antitrust case did not violate the defendant’s
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
*** The Honorable Lynn S. Adelman, United States District
Judge for the Eastern District of Wisconsin, sitting by designation.

Pet. App. 3
constitutional rights. Manufacturers’ Ass’n, 462 F.2d at
52. Defendants’ argument that Manufacturers’ is
clearly irreconcilable with intervening Supreme Court
antitrust decisions is unpersuasive, because the Supreme Court has continued to recognize categories of
per se violations. See Ohio v. American Express Co., 138
S. Ct. 2274, 2283 (2018) (“A small group of restraints
are unreasonable per se.”); F.T.C. v. Actavis, Inc., 570
U.S. 136, 161 (2013) (noting that “it is per se unlawful
to fix prices under antitrust law”); Texaco Inc. v.
Dagher, 547 U.S. 1, 5 (2006) (“Price-fixing agreements
between two or more competitors, otherwise known
as horizontal price-fixing agreements, fall into the
category of arrangements that are per se unlawful.”
(emphasis added)). Defendants’ argument that Manufacturers’ is clearly irreconcilable with intervening
Supreme Court decisions relating to mandatory evidentiary presumptions in criminal law is irrelevant,
because Manufacturers’ held that the per se rule is not
an evidentiary presumption at all. Manufacturers’
Ass’n, 462 F.2d at 52. The district court therefore did
not err in instructing the jury under the per se rule.
2. Defendants’ proposed jury instruction, which
would have instructed the jury that two entities are
not competitors for purposes of Section 1, and therefore
cannot conspire, if they are engaged in a joint venture,
lacked support in the law or in the facts of this case.
See United States v. Thomas, 612 F.3d 1107, 1120 (9th
Cir. 2010) (“A defendant is entitled to have the judge
instruct the jury on [his or her] theory of defense, provided that it is supported by the law and has some

Pet. App. 4
foundation in the evidence.” (quoting United States v.
Mason, 902 F.2d 1434, 1438 (9th Cir. 1990)). That Defendants cooperated with other persons and entities
for purposes of rigging bids does not mean they were
not competitors. See Am. Needle, Inc. v. Nat’l Football
League, 560 U.S. 183, 191 (2010) (explaining that even
“members of a legally single entity” have been held to
have “violated § 1 when the entity was controlled by a
group of competitors and served, in essence, as a vehicle for ongoing concerted activity”). Thus, the district
court did not err in rejecting the proposed instruction.
See Thomas, 612 F.3d at 1120-21 (explaining that this
court reviews de novo the question whether a proposed
instruction was supported by law, and “for abuse of discretion whether there is a factual foundation for a proposed instruction”).
3. Defendants did not preserve their argument
that the district court’s instruction defining bid rigging
was overbroad. See Fed. R. Crim. P. 30 (“A party who
objects to any portion of the [jury] instructions . . .
must inform the court of the specific objection and the
grounds for the objection before the jury retires to deliberate.”). We thus review for plain error. See Fed R.
Crim. P. 52(b); Puckett v. United States, 556 U.S. 129,
135 (2009) (outlining four prongs to plain error review). Here, even assuming the portion of the instruction that Defendants claim was overbroad should not
have been included, it did not affect Defendants’ substantial rights because the bid-rigging conduct Defendants were accused of clearly fell within the core of
the instruction, not the allegedly overbroad part.

Pet. App. 5
4. To the extent Defendants have argued that
the district court’s instructions amounted to a constructive amendment of their indictment, that argument fails. The indictment clearly stated that
Defendants were accused of bid rigging. That the indictment also quoted Standard Oil in generally describing the Sherman Act violation—i.e., rigging bids
in unreasonable restraint of trade and commerce—does
not alter the fact that the bid-rigging charge was a
charge of a per se antitrust violation. See United States
v. Ward, 747 F.3d 1184, 1191 (9th Cir. 2014) (explaining
that there is no constructive amendment “when the indictment simply contains superfluously specific language describing alleged conduct irrelevant to the
defendant’s culpability under the applicable statute,”
and that “[i]n such cases, convictions can be sustained
if the proof upon which they are based corresponds to
the offense that was clearly described in the indictment”); see also United States v. Joyce, 895 F.3d 673,
679 (9th Cir. 2018) (holding that bid rigging was a per
se violation and that “the district court did not err by
refusing to permit [the defendant] to introduce evidence of the alleged ameliorative effects of his conduct,” in an appeal by another co-conspirator involved
in the same scheme as Defendants here).
AFFIRMED.

Pet. App. 6
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
UNITED STATES
OF AMERICA,
Plaintiff,
v.

Case No. 14-cr-00580-PJH
PRETRIAL ORDER
NO. 2
(Filed Jun. 21, 2016)

MICHAEL MARR,
JAVIER SANCHEZ,
GREGORY CASORSO,
and VICTOR MARR,
Defendants.
Before the court are defendants’ motions for a bill
of particulars (doc. no. 65), to dismiss the mail fraud
counts (doc. no. 67), to adjudicate the Sherman Act allegations pursuant to the rule of reason (doc. no. 66),
and to suppress warrantless audio recordings (doc. no.
68). The parties have filed supplemental post-hearing
briefs, and the matters are deemed submitted. The government’s motion to exclude the declaration of defendant Gregory Casorso is DENIED, and defendants are
granted leave to file the untimely declaration. The
court ORDERS as follows:
1. Defendants’ motion for a bill of particulars is
DENIED. Doc. no. 65. The government has provided
discovery in an organized manner, and defendants
seek specific categories of detailed evidence which is
not required of a bill of particulars. United States v.
DiCesare, 765 F.2d 890, 897 (9th Cir. 1985); United

Pet. App. 7
States v. Giese, 597 F.2d 1170, 1180 (9th Cir. 1979)
(“there is no requirement in conspiracy cases that the
government disclose even all the overt acts in furtherance of the conspiracy”). The court has previously ordered early disclosure of the government’s witness and
exhibit lists, and of co-conspirator statements, to address defendants’ concern about being able to prepare
for trial more effectively and efficiently in light of the
voluminous discovery.
2. Defendants’ motion to dismiss the mail fraud
counts is DENIED. Doc. no. 67. The indictment describes the alleged scheme to defraud and scheme to
obtain money and property by means of materially
false and fraudulent pretenses, representations and
promises, and specifies the following information for
each mail fraud count: (1) the individual defendants
who knowingly caused the use of the mails (either
United States mail or private or commercial carrier);
(2) approximate date; (3) recipient; (4) sender; and
(5) description of the item delivered. Indictment (doc.
no. 1) ¶¶ 15-19, 30-34. The indictment sufficiently contains “the elements of the charged crime in adequate
detail to inform the defendant of the charge and to enable him to plead double jeopardy.” U.S. v. Awad, 551
F.3d 930, 935 (9th Cir. 2009) (citation omitted).
3. Defendants’ motion to adjudicate the Sherman Act counts pursuant to the rule of reason is DENIED. Doc. no. 66. The indictment charges defendants
with a conspiracy involving an agreement not to compete at public foreclosure auctions, designating which
conspirator would win selected properties at the public

Pet. App. 8
auction, and holding secondary private auctions to determine the conspirator who would be awarded the selected properties and to determine the payoff amounts
for those agreeing not to compete. This type of conduct
falls squarely within the per se category of bid-rigging,
which is widely recognized as a form of price-fixing,
which is “conclusively presumed to be unreasonable
and therefore illegal without elaborate inquiry as to
the precise harm they have caused or the business excuse for their use.” Northern Pac. Ry. Co. v. U.S., 356
U.S. 1, 5 (1958).
Defendants cite Paladin Associates, Inc. v. Montana Power Co., 328 F.3d 1145, 1154-55 (9th Cir. 2003),
where the court noted that it was appropriate to apply
the rule of reason “because plausible arguments that a
practice is procompetitive make us unable to conclude
‘the likelihood of anticompetitive effects is clear and
the possibility of countervailing procompetitive effects
is remote.” Id. at 1155 n.8 (quoting Northwest Wholesale Stationers, Inc. v. Pacific Stationery and Printing
Co., 472 U.S. 284, 294 (1985)). Neither Paladin nor
Northwest Wholesale Stationers (both civil cases involving private litigants) involved an anticompetitive
agreement that fell squarely within a per se category,
and neither case stands for the proposition that defendants may offer plausible arguments in support of
a rule of reason analysis to a category of economic activity that merits per se invalidation under Section 1
of the Sherman Act. See Northwest Wholesale Stationers, 472 U.S. at 293, 295-96 (distinguishing the wholesale cooperative at issue from group boycotts subject to

Pet. App. 9
per se treatment, where the case “turns on . . . whether
the decision to expel Pacific is properly viewed as a
group boycott or concerted refusal to deal mandating
per se invalidation”); Paladin, 328 F.3d at 1154-55
(“even if Northridge and MPC are, in a sense, competitors, the type of agreement at issue here cannot be
considered one that will ‘always or almost always tend
to restrict competition.’ ”) (quoting Northwest Wholesale Stationers, 472 U.S. at 289). The court declines defendants’ invitation to carve out an exception from the
per se rule that applies to bid-rigging simply because
it took place during a recession or in the wake of a
housing bubble, given the weight of authority recognizing bid-rigging as a category of anticompetitive conduct subject to per se treatment. U.S. v. Green, 592 F.3d
1057, 1068 (9th Cir. 2010) (affirming CR 05-208 WHA
(N.D. Cal.)); U.S. v. Romer, 148 F.3d 359 (4th Cir. 1998);
U.S. v. Koppers Co., Inc., 652 F.2d 290, 295 (2d Cir.
1981).
By contrast to Paladin and Northwest Wholesale
Stationers, where the courts considered whether the
alleged conduct fit into the per se category of group
boycotts, an alleged agreement not to compete at a
public auction, to designate the winner at the public
auction, and to negotiate payoffs for agreeing not to
compete is the kind of agreement that courts have
deemed to be unlawful under Section 1 of the Sherman
Act, as recognized by the antitrust bar:
The indictment charges the defendants with
conspiring to rig the results of an auction. An
auction-rigging conspiracy is an agreement

Pet. App. 10
between two or more persons to eliminate, reduce or interfere with competition for a product, job or contract that is to be awarded on
the basis of auction bids. In this case, defendants have been charged with conspiring to rig
the results of the [auction title or description]
by deciding in advance which of them should
be the successful bidder on particular items.
ABA MODEL JURY INSTRUCTIONS IN CRIMINAL ANTITRUST
CASES at 62-63 (2009)). As the government points out,
the per se rule has been consistently applied in prosecutions for bid-rigging in the context of public foreclosure auctions, though admittedly the defendants in
those cases did not litigate the application of the per se
rule. U.S. v. Romer, 148 F.3d 359 (4th Cir. 1998); U.S. v.
Guthrie, 814 F. Supp. 942 (E.D. Wash. 1993), aff ’d, 17
F.3d 397 (9th Cir. 1994) (unpublished); U.S. v. Katakis,
CR 11-511 WBS (E.D. Cal. March 11, 2014).
Even if the reasoning of Paladin could be extended
to a per se bid-rigging prosecution, the court is not
persuaded that defendants have offered “plausible arguments” about the procompetitive effects of their
agreement that would warrant analysis under the rule
of reason. Defendants argue that they were competing
in a unique market, where the banks effectively dominated the market for foreclosed properties and set
their own price as buyers by determining the opening
bid as sellers at the public auction. This “unique position” of the banks is not unique to the time period
charged in the indictment. As recognized by defendants’ consultant, “In public foreclosure auctions, the

Pet. App. 11
mortgage holder sets the opening bid amount. . . . If a
third party does not bid higher than the opening bid,
then the bank retains the property and is able to resell
it in the open market.” Andrien Decl. (doc. no. 66-1)
¶ 16. The fact that defendants are charged with an
agreement not to compete during a time when there
was a glut of foreclosures does not render their anticompetitive agreement subject to a “plausible argument”
that their arrangement was “intended to enhance overall efficiency and make markets more competitive.”
Northwest Wholesale Stationers, 472 U.S. at 294, 296
(recognizing that wholesale purchasing cooperatives
“are not a form of concerted activity characteristically
likely to result in predominantly anticompetitive effects” and that “[t]he act of expulsion from a wholesale
cooperative does not necessarily imply anticompetitive
animus and thereby raise a probability of anticompetitive effect”).
Defendants have not demonstrated that the housing foreclosure market was exceptional in any way
other than the volume of properties available, nor have
they argued that they were precluded from competing
in the open market. See U.S. v. Alston, 974 F.2d 1206,
1209 (9th Cir. 1992) (rejecting argument that that [sic]
the agreement among dentists on higher co-payment
fees to be paid by prepaid dental plans should have been
analyzed under the rule of reason, holding that the
health care market was not an exceptional market in
which horizontal restraints on competition were necessary to make the product available on the market at
all). Defendants were not prevented from entering the

Pet. App. 12
market without an agreement not to compete; defendants could have openly competed in the public foreclosure auctions against the banks and other competitors,
including co-conspirators. The Sherman Act violations
charged in the indictment allege an agreement among
competitors not to compete against each other at auction, a bid-rigging arrangement mandating per se treatment because “the likelihood of anticompetitive effects
is clear and the possibility of countervailing procompetitive effects is remote.” Northwest Wholesale
Stationers, 472 U.S. at 294. “This principle of per se unreasonableness not only makes the type of restraints
which are proscribed by the Sherman Act more certain
to the benefit of everyone concerned, but it also avoids
the necessity for an incredibly complicated and prolonged economic investigation into the entire history of
the industry involved, as well as related industries, in
an effort to determine at large whether a particular restraint has been unreasonable—an inquiry so often
wholly fruitless when undertaken.” Northern Pac. Ry.,
356 U.S. at 5.
4. The court has received supplemental briefs
and audio recordings in support of defendants’ motion
to suppress. After reviewing the supplemental filings,
the court will determine whether to set a further hearing on the motion to suppress. Doc. no. 68.

Pet. App. 13
IT IS SO ORDERED.
Dated: June 21, 2016
/s/ Phyllis J. Hamilton
PHYLLIS J. HAMILTON
United States District Judge

Pet. App. 14
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
UNITED STATES
OF AMERICA,

Case No. 14-cr-00580-PJH
PRETRIAL ORDER
NO. 5

Plaintiff,
v.

(Filed Apr. 28, 2017)

MICHAEL MARR,
JAVIER SANCHEZ,
GREGORY CASORSO,
and VICTOR MARR,
Defendants.
On April 19, 2017, this matter came on for pretrial
conference and for hearing on Victor Marr’s motion to
continue trial. The court previously held a hearing and
ruled on defendants’ motions to sever in the order entered October 12, 2016, which is hereby designated as
Pretrial Order No. 4 (doc. no. 186). As stated on the record and summarized below, the court rules on the motions in limine and other disputed pretrial matters as
follows:
*
II.

*

*

Motions in Limine (“MIL”)
A. Defendants’ Motions in Limine
1. Defendants’ Joint MIL to Admit Testimony Regarding Analysis of Auction
Sale Prices

Defendants seek to admit testimony and evidence
regarding the analysis by their consultant, Jeffrey

Pet. App. 15
Andrien, of auction sale prices during and after the
conspiracy period, despite the court’s earlier ruling in
Pretrial Order No. 2 denying defendants’ motion to adjudicate the Sherman Act count pursuant to the rule of
reason. Doc. no. 209. Defendants contend that they
should be permitted to refute the allegations of the
indictment that they suppressed competition by “purchasing selected properties at public auctions at artificially suppressed prices.” Defendants also contend that
the government’s theory of the case, as argued in both
trials in the related case U.S. v. Florida, CR 14-582
PJH and CR 14-582 JD, is that the difference between
the public auction price and the secondary auction
price would have gone to the beneficiaries, which is
mere speculation based on anticipated testimony of cooperating witnesses that they would have bid more at
the public auction but for the secondary auctions or
rounds. Defendants argue that Jeffrey Andrien’s analysis will disprove the government’s key allegation that
the secondary auction prices would have otherwise
been added to the public auction bid prices.
In further support of defendants’ motion in limine
to admit the Andrien testimony is their separate brief
in support of (1) defendants’ proposed instruction requiring the jury to find “unreasonable restraint” as an
element of bid rigging and (2) defendants’ request to
admit evidence whether the alleged agreement resulted in an unreasonable restraint. Doc. no. 212. Defendants contend that a conclusive presumption of
unreasonableness under the per se rule violates their
rights to due process and jury determination on the

Pet. App. 16
element of an unreasonable restraint of trade to prove
a Sherman Act violation. Doc. no. 212. Because this due
process argument in support of defendants’ proposed
jury instruction is relevant to defendants’ motion in
limine to admit Andrien’s testimony, and other disputed pretrial matters, the court addresses it at the
outset.
a. Challenges to Per Se Rule
Defendants contend that excluding evidence of
whether defendants’ alleged bid rigging agreement restrained competition or suppressed prices at the public
auctions would violate their right to due process and
right to have a jury determine an essential element of
the Sherman Act counts, namely, whether the alleged
bid rigging was an unreasonable restraint of trade. In
their brief in support of their proposed instruction on
“unreasonable restraint” and their request to admit
rule of reason evidence, doc. no. 212, defendants make
the following arguments:
(1) that unreasonableness of restraint
of trade is a necessary element of a criminal
violation of Section 1 of the Sherman Act under Standard Oil Co. v. United States, 221 U.S.
1 (1911), despite 77 years of controlling authority, under U.S. v. Socony-Vacuum Oil Co.,
310 U.S. 150 (1940) and its progeny, recognizing that price-fixing is conclusively presumed
to be unreasonable and constitutes per se unreasonable restraint of trade under Section 1;
and

Pet. App. 17
(2) that despite controlling Ninth Circuit authority holding that “[t]he per se rule
does not operate to deny a jury decision as to
an element of the crime charged, since ‘unreasonableness’ is an element of the crime only
when no per se violation has occurred,” U.S. v.
Manufacturers’ Ass’n of the Relocatable Bldg.
Ind., 462 F.2d 49, 52 (9th Cir. 1972) (“Manufacturers’ Ass’n”), the development of due process jurisprudence, recognizing a defendant’s
right to a jury determination on every element of the crime with which he is charged,
directly conflicts with the Socony-Vacuum per
se rule, requiring the issue of the reasonableness of the combination in restraint of trade
to be decided by the jury under an appropriate
“rule of reason” instruction.
Under this line of reasoning, defendants urge the
court to disregard Manufacturers’ Ass’n, in which the
Ninth Circuit squarely rejected a due process challenge
to the Socony-Vacuum per se rule, on the ground that
it has been effectively overruled by subsequent Supreme Court authority holding that a criminal defendant has a due process right to have a jury, not a judge,
decide whether every element of a charged offense has
been proven. In Manufacturers’ Ass’n, the defendants
appealed from their convictions in the Northern District of California for violating antitrust laws, on the
ground that the per se rule as to price-fixing creates a
conclusive presumption in violation of their rights to
due process. The Ninth Circuit recognized that “since
the accused is presumed innocent, he has the right to
have each element of the crime charged submitted to

Pet. App. 18
the jury,” and that “[c]onclusive presumptions may not
operate to deny this right.” 462 F.2d at 50 (citing Morissette v. United States, 342 U.S. 246 (1952)).
Addressing the appellants’ due process challenge
to application of the per se rule, i.e., “that price-fixing
is per se a violation of the antitrust laws and that the
test of reasonableness has no application,” the Ninth
Circuit held that the “[a]ppellants’ contention that the
per se rule constitutes an unconstitutional conclusive
presumption misunderstands the Sherman Act.” Id.
The court proceeded to explain that in interpreting the
Sherman Act, the Supreme Court has enunciated two
distinct rules of substantive law: “(1) certain classes
of conduct, such as price-fixing, are, without more,
prohibited by the Act; (2) restraints upon trade or
commerce which do not fit into any of these classes
are prohibited only when unreasonable.” Id. at 52. In
other words, “the per se rule establishes a conclusive
presumption that certain types of conduct are unreasonable” within the meaning of the Sherman Act, such
as price-fixing agreements. Id. The court in Manufacturers’ Ass’n squarely held that there is no right to a
jury determination of unreasonableness for a per se violation:
Morissette, supra, is inapposite. The per se
rule does not operate to deny a jury decision
as to an element of the crime charged, since
“unreasonableness” is an element of the crime
only when no per se violation has occurred. To
put it differently “reasonableness” must be
viewed as a legal term, and not in its ordinary

Pet. App. 19
sense. When the Court describes conduct as
per se unreasonable, they do no more than circumscribe the definition of “reasonableness.”
While the appellants deserve credit for their
ingenious and novel attempt to trap the Court
in its own rhetoric, their contention that the
per se rule should be set aside must be, and is
rejected. The per se rule does not establish a
presumption. It is not even a rule of evidence.
462 F.2d at 52.
Other circuit courts have cited Manufacturers’
Ass’n with approval to hold that the per se rule does
not deprive a defendant of the right to have each element of the offense submitted to the jury. See United
States v. Giordano, 261 F.3d 1134, 1144 (11th Cir. 2001)
(citations omitted); United States v. Fischbach & Moore,
Inc., 750 F.2d 1183, 1196 (3d Cir. 1984) (citations omitted). The government points out that every court of appeals to reach the question has similarly concluded
that the per se rule is a matter of substantive law, and
does not deprive the defendant of the right to jury trial.
Doc. no. 235 at 2. See United States v. Cargo Serv. Stations,
Inc., 657 F.2d 676, 683-84 (5th Cir. 1981) (“because fixing prices is by itself an unreasonable restraint of
trade, an intent to fix prices is equivalent to an intent
to unreasonably restrain trade”); United States v. Koppers Co., 652 F.2d 290, 294 (2d Cir. 1981) (“Since the
Sherman Act does not make ‘unreasonableness’ part of
the offense, it cannot be said that the judicially-created
per se mechanism relieves the Government of its duty
of proving each element of a criminal offense under the

Pet. App. 20
Act.”); United States v. Brighton Bldg. & Maint. Co.,
598 F.2d 1101, 1106 (7th Cir. 1979) (“Since the per se
rules define types of restraints that are illegal without
further inquiry into the competitive reasonableness,
they are substantive rules of law, not evidentiary presumptions. It is as if the Sherman Act read: ‘An agreement among competitors to rig bids is illegal.’ ”).
In support of their argument that the court should
hold that Manufacturers’ Ass’n has been effectively
overruled by subsequent Supreme Court authority expanding on the rights to due process and jury trial, defendants cite a line of cases starting with Carella v.
California, 491 U.S. 263 (1989) (per curiam), where the
Court held that jury instructions imposing conclusive
presumptions as to core elements of the crime violated
the defendant’s right under the Due Process Clause of
the Fourteenth Amendment, which “denies States the
power to deprive the accused of liberty unless the prosecution proves beyond a reasonable doubt every element of the charged offense.” 491 U.S. at 265 (citing In
re Winship, 397 U.S. 358, 364 (1970)). The Court in
Carella cited clearly established Supreme Court authority recognizing that “[j]ury instructions relieving
States of this burden violate a defendant’s due process
rights.” Id. (citing Francis v. Franklin, 471 U.S. 307
(1985); Sandstrom v. Montana, 442 U.S. 510 (1979)).
Sandstrom, in turn, relied on the holdings of Morissette, 342 U.S. at 274-75 (instruction that criminal intent was presumed from defendant’s conduct “would
conflict with the overriding presumption of innocence
with which the law endows the accused and which

Pet. App. 21
extends to every element of the crime”), and U.S. v.
United States Gypsum Co., 438 U.S. 422, 435 (1978)
(“intent is an element of a criminal antitrust offense
which must be established by evidence and inferences
drawn therefrom and cannot be taken from the trier of
fact through reliance on a legal presumption of wrongful intent from proof of an effect on prices”). See Sandstrom, 442 U.S. at 521-22.
Given this long line of cases recognizing that essential elements of the crime must be found by the jury,
defendants do not raise a persuasive argument that
this court should determine that decisions from Winship through Sandstrom, Francis, Carella and Apprendi v. New Jersey, 530 U.S. 466, 477 (2000) “effected
a sea change in understanding and applying a criminal
defendant’s right to Due Process” that “flatly precludes
reliance on the per se rule here.” Doc. no. 212 at 14, 16.
The due process principles that defendants contend
contravene the per se rule were considered by the court
in Manufacturers’ Ass’n, which cited Morissette as authority on the right to have every element of the crime
submitted to the jury. See Morissette, 342 U.S. at 276
(“Whether that intent existed, the jury must determine, not only from the act of taking, but from that
together with defendant’s testimony and all of the surrounding circumstances.”). Accordingly, the court declines defendants’ invitation to disregard the holding
of Manufacturers’ Ass’n that “[t]he per se rule does not
operate to deny a jury decision as to an element of the
crime charged.” 462 F.2d at 52.

Pet. App. 22
b. Relevance
Defendants contend that they are entitled to defend the factual allegations made in the indictment,
i.e., that defendants “artificially suppressed” prices at
the public auction. Doc. no. 209 at 5-6 (citing Crane v.
Kentucky, 476 U.S. 683, 690 (1986) (“the Constitution
guarantees criminal defendants a meaningful opportunity to present a complete defense”) (internal citation and marks omitted)). See Indictment ¶¶ 10.d,
25.d. Defendants proffer Andrien’s analysis of auction
sale prices in Alameda and Contra Costa Counties,
during and after the conspiracy period alleged in the
indictment. Defendants contend that Andrien’s analysis is based on an analytical model that is widely accepted for assessing the economic impact of alleged
anticompetitive conduct in the marketplace, generally
referring to MDL litigation without citing court opinions recognizing the purported methodology.
Defendants also contend that their analysis of
auction sale prices will undercut the government’s theory that the properties would have been sold at the secondary auction prices. Defendants point out that the
secondary auction bidders told the FBI that one reason
they participated in the secondary auctions was to
make money from each other, with no intent to purchase the properties, suggesting that the bidding at the
secondary rounds would have had no bearing on the
prices bid at the public auction. Defendants argue that
the participants’ practice of selling each other insurance at the secondary auctions demonstrates that the
insured bidder had no interest in purchasing the

Pet. App. 23
property, but only to bid in the secondary rounds to
drive up the price as high as he could to inflate the
price to other bidders. Defendants further point to the
practice of some bidders to have two “seats” at the secondary rounds, which amounts to a method of inflating
the price of the property to other bidders at the rounds,
to make more money from other bidders in the rounds,
with no bearing on the prices bid at the public auction.
Doc. no. 209 at 3-4.
The government opposes the defense motion to admit Andrien’s testimony generally on the ground that
a bid rigging conspiracy is a per se violation of the
Sherman Act, and that evidence of the economic effect
is irrelevant, and therefore inadmissible. The allegation that the conspiracy “artificially suppressed prices”
does not go to an essential element of the crime, and
the government is not required to prove all the allegations of the indictment. “The cases make clear that the
government need not prove all facts charged in an indictment; instead, only enough facts to prove the essential elements of the crime must be demonstrated at
trial.” U.S. v. Jenkins, 785 F.2d 1387, 1392 (9th Cir.
1986) (citations omitted).
Each bid rigging charge requires the jury to find
the following three elements: (1) an agreement to rig
bids; (2) defendants knowingly participated in the
agreement; and (3) their activities were in the flow of
or affected interstate commerce. Because evidence of
reasonableness or pro-competitive justification for bid
rigging is not relevant in a per se case, it is not admissible under FRE 402. “Insofar as the language of an

Pet. App. 24
indictment goes beyond alleging elements of the crime,
it is mere surplusage that need not be proved.” Id.
(proof of federal insurance is not an essential element
of the crimes charging false statements to obtain loans
insured by the FHA, and allegations that appellants’
false statements were directed to an FHA-approved
lender were surplusage that did not have to be proved
at trial). See also United States v. Miller, 471 U.S. 130,
136 (1985) (“[a]s long as the crime and the elements of
the offense that sustain the conviction are fully and
clearly set out in the indictment, the right to a grand
jury is not normally violated by the fact that the indictment alleges more crimes or other means of committing the same crime”).
Even if defendants were permitted to rebut the allegations of the indictment related to artificially suppressed prices, the government argues that Andrien’s
analysis is irrelevant to the question whether the bid
rigging conspiracy suppressed the prices of the selected properties and diverted money away from the
banks and beneficiaries to the coconspirators, because
Andrien analyzes the prices paid for ALL properties
sold at the auctions, not the prices of the selected properties that were rigged, which are the subject of the indictment. Doc. no. 236 at 9. As the court held in the
Florida pretrial proceedings, Andrien’s analysis of the
prices of all properties sold at public foreclosure auctions is irrelevant to the agreement to rig bids on selected properties as alleged in the indictment:
The analysis proposed by defendants comparing post-conspiracy auction sales prices with

Pet. App. 25
the prices of all properties sold at auction during the charged time period is not relevant to
the prices of the set of selected properties that
defendants actually purchased. Thus, the
analysis described by defendants is inadmissible as irrelevant pursuant to FRE 402.
Florida I, CR 14-582 PJH, doc. no. 284 at 6. The government points out that it has not noticed an economic
expert as a trial witness, and has no intention to present statistical economic evidence on the prices of
properties sold at auction to prove that defendants artificially suppressed prices. Doc. no. 236 at 11.
Defendants also argue that they are entitled to refute evidence and argument that coconspirators believed they could purchase properties for a lower price
by participating in the rounds, when the evidence
shows that many bidders at the rounds had no intent
to purchase the properties, but participated in the
rounds to drive up the secondary auction price to make
money off of other bidders. The government responds
that the evidence of the coconspirators’ subjective
beliefs, that they would economically benefit from bid
rigging, is relevant to their motive for joining the conspiracy. The government would not offer evidence of
their subjective beliefs to prove that bid rigging conspiracy actually lowered the price of the properties at
public auction. Furthermore, Andrien’s analysis would
not be probative of the subjective beliefs of the coconspirators, and would not be relevant rebuttal evidence
on that issue. Doc. no. 236 at 12-13.

Pet. App. 26
The court determines that any analysis by Andrien about the effect of the bid rigging agreement on
the auction prices would be irrelevant and is therefore
inadmissible pursuant to FRE 402 (“Irrelevant evidence is not admissible.”). The Andrien testimony is
also inadmissible pursuant to FRE 403 because it is
prejudicial and is likely to cause confusion of the issues.
c. Opinion Testimony
The government further objects to the admissibility of Andrien’s analysis of auction sales prices as inadmissible opinion testimony because his analysis is
not reliable and is not relevant to qualify as expert testimony. Doc. no. 236.
It is undisputed that Andrien is not a percipient
witness and that his testimony is not admissible under
FRE 701, which provides:
If a witness is not testifying as an expert, testimony in the form of an opinion is limited to
one that is:
(a) rationally based on the witness’s
perception;
(b) helpful to clearly understanding the
witness’s testimony or to determining a fact in
issue; and
(c) not based on scientific, technical, or
other specialized knowledge within the scope
of Rule 702.

Pet. App. 27
Defendants must establish the admissibility of
Andrien’s opinion testimony under FRE 702, which
provides:
A witness who is qualified as an expert by
knowledge, skill, experience, training, or education may testify in the form of an opinion or
otherwise if:
(a) the expert’s scientific, technical, or
other specialized knowledge will help the trier
of fact to understand the evidence or to determine a fact in issue;
(b) the testimony is based on sufficient
facts or data;
(c) the testimony is the product of reliable principles and methods; and
(d) the expert has reliably applied the
principles and methods to the facts of the
case.
On this record, defendants have not established that
Andrien’s opinion testimony “rests on a reliable foundation and is relevant to the task at hand” to be admissible under FRE 702. Daubert v. Merrell Dow Pharm.,
Inc., 509 U.S. 579, 597 (1993) (“Daubert I”). In addition
to the lack of relevance, discussed above, defendants
have not established the reliability of Andrien’s testimony by a preponderance of the evidence. See Daubert
I, 509 U.S. at 593 (factors the court can consider in determining whether to admit expert scientific testimony
under FRE 702 include whether the theory or technique employed by the expert is generally accepted in

Pet. App. 28
the scientific community; whether it’s been subjected
to peer review and publication; whether it can be and
has been tested; and whether the known or potential
rate of error is acceptable). The government points out
several factors that undermine the reliability of Andrien’s testimony:
i. Andrien has experience in business
management, marketing and IP, but is not
an economic expert, and does not have specialized knowledge in economics or economic
modeling. His field of expertise appears to be
in marketing, business management and intellectual property, but he does not appear to
have any prior experience analyzing the real
estate market.
ii. Defendants do not show that Andrien’s methodology has been subject to peer
review, or “point to some objective source – a
learned treatise, the policy statement of a professional association, a published article in a
reputable scientific journal or the like – to
show that they have followed the scientific
method, as it is practiced by (at least) a recognized minority of scientists in their field.”
Daubert v. Merrell Dow Pharmaceuticals, Inc.,
43 F.3d 1311, 1319 (9th Cir. 1995) (“Daubert
II”). The government points out that Andrien’s
analysis fails to cite economic literature that
has analyzed collusion in auction settings.
Doc. no. 236 at 4 and n.1 (citations omitted).
The government adds that defendants do not
cite any bid rigging cases or a specific expert
opinion that has employed Andrien’s model,

Pet. App. 29
noting that defendants argue only generally
that it is the “same basic model used in damage analysis in a wide range of federal and
state cases.” Id. at 5.
iii. Andrien’s work was done specifically
for this litigation, and did not grow “naturally
and directly out of research they have conducted independent of the litigation.” Daubert
II, 43 F.3d at 1317 (“in determining whether
proposed expert testimony amounts to good
science, we may not ignore the fact that a scientist’s normal workplace is the lab or the
field, not the courtroom or the lawyer’s office”).
iv. Andrien’s analysis is flawed because
he did not properly take variables into account, such as the effect of the recession, seasonality, availability of financing, and regional
and demographic changes that affect housing
prices. Doc. no. 236 at 6-7. Andrien also fails
to explain why he only included 6 months of
data for the post-conspiracy period (“PostPeriod”) to compare to the two-year conspiracy period (“Indictment Period”), and did not
analyze housing prices before the conspiracy
at all.
v. Andrien’s analysis does not support
his conclusion that auction prices slightly decreased after the conspiracy period so that the
banks received less during the post-conspiracy
period compared to the conspiracy period, because it fails to analyze the dollar amounts
that the banks received, focusing only on the

Pet. App. 30
percentages paid over the opening bid. The
government also challenges Andrien’s conclusion that there is no evidence to suggest that
auction prices were suppressed by the bid rigging, because he did not measure what prices
should have been during the indictment period for the properties that were rigged, and
only compared the prices of ALL properties offered at the auctions during the Indictment
Period against the prices Post-Period.
Because defendants fail to demonstrate the admissibility of Andrien’s opinion testimony under FRE 702,
defendants’ motion in limine to admit Andrien’s testimony is DENIED.
*

*

*

B. Disputed Instructions
1. Instructions Applying Per Se Rule
Defendants object to the following instructions
proposed by the government, which were given in Florida I, Joyce, and Guillory, on the ground that they fail
to include the element of an “unreasonable restraint”
on trade:
Gov’t No. 2: The Charge (9th Cir. Crim. Jury
Instr. 1.2 and ABA Crim. Antitrust Instr.
at 27; listing elements of bid rigging)
Gov’t No. 18: Per Se Violations (ABA Crim.
Antitrust Instr. at 54)
Gov’t No. 19: Elements of the Bid Rigging
Offenses (ABA Crim. Antitrust Instr. at
47)

Pet. App. 31
Doc. no. 231. Defendants propose alternative instructions applying the rule of reason, to instruct the jury
on “unreasonable restraint” of trade:
Defs’ No. 17:
Offense

Elements of the Bid Rigging

Defs’ No. 24:
Reason

Theory of the Case – Rule of

In their proposed instruction No. 17, defendants
propose adding an element requiring “unreasonable
restraint of trade” to the Elements of Bid Rigging, and
adding language from the indictment, requiring the
government to prove that a conspiracy existed “to suppress and restrain competition by rigging bids to obtain hundreds of selected properties offered at public
auctions.” Doc. no. 210 (Defs’ No. 17). Defendants also
propose a rule of reason instruction, Defs’ No. 24, based
on a model ABA instruction for civil antitrust cases applying the rule of reason.
As previously discussed, bid rigging is per se unreasonable within the meaning of the Sherman Act
under clearly established federal law, and under controlling Ninth Circuit authority, “[t]he per se rule does
not operate to deny a jury decision as to an element of
the crime charged.” Manufacturers’ Ass’n, 462 F.2d at
52. Furthermore, because the government is not required to prove all the allegations of the indictment,
only the elements of the offense must be given in the
instruction, as proposed by the government’s proposed
instruction No. 19, which is based on the model ABA
instruction on elements of the offense. The government’s

Pet. App. 32
proposed instruction on “Elements of the Offense” does
not alter the bid rigging crime charged in the indictment so as to result in a constructive amendment, as
argued by the defense. See United States v. Davis, ___
F.3d ___, 2017 WL 1363804, *1 (9th Cir. Apr. 14, 2017)
(“A constructive amendment occurs when the charging
terms of the indictment are altered, either literally or
in effect, by the prosecutor or a court after the grand
jury has last passed upon them.”) (quoting United
States v. Ward, 747 F.3d 1184, 1190 (9th Cir. 2014)).
To the extent that the “knowingly” element of the
model ABA instruction does not require “intending to
help achieve” the anticompetitive objectives of the conspiracy to rig bids, as proposed by defendants’ No. 17,
such a finding of intent to produce anticompetitive effects is not required for a per se violation of the Sherman Act. United States v. Brown, 936 F.2d 1042, 1046
(9th Cir. 1991) (“a finding of intent to conspire to commit the offense is sufficient; a requirement that intent
go further and envision actual anti-competitive results
would reopen the very questions of reasonableness
which the per se rule is designed to avoid.”) (citations
and internal marks omitted). Thus, defendants’ objections to the government’s proposed instructions Nos. 2
(The Charge), 18 (per se violations) and 19 (elements)
applying the per se rule are OVERRULED.
Accordingly, the court adopts the government’s
proposed instructions Nos. 2, 18 and 19, and DENIES
defendants’ request to give Defs’ Nos. 17 (elements)
and 24 (rule of reason).

Pet. App. 33
2. Bid Rigging
Defendants object to the government’s proposed
Instruction No. 20 (Bid Rigging), which was given in
Florida I, Joyce and Guillory, on the ground that it relies on the per se rule. Defendants also generally object
on the grounds that this instruction is confusing, internally inconsistent, mischaracterizes the law, and essentially directs a verdict of guilty, without explaining
or citing specific language to support the objection.
Doc. no. 231. Defendants propose an alternate instruction No. 18 entitled “Sherman Act Violations” which is
loosely based on the same model ABA Bid Rigging instruction cited by the government. ABA Crim. Antitrust Instr. at 54-56, 61-63.
Defendants’ proposed instruction (1) takes out introductory language explaining that conspiracy to rig
bids is the first element of the offense, and (2) adds language to the ABA model instruction related to a joint
venture or partnership. In support of their proposed
version, defendants cite the instructions given in U.S.
v. Katakis, CR 11-511 (E.D. Cal. 2014) which is factually distinguishable from this case and not binding
here.
The court does not adopt defendants’ proposed instruction No. 18 for two reasons. First, omitting the introductory language about conspiracy omits important
context for the jury, particularly because the court will
not give a separate conspiracy instruction where defendants are not charged with a separate conspiracy
count apart from the bid rigging count, and the elements

Pet. App. 34
of a bid rigging conspiracy are covered by the ABA
model instruction on elements of the offense. Second,
the proposed instructions about finding a joint venture
or partnership could cause unnecessary confusion and
mislead the jury. As the government points out in its
objections, the government will try to prove an agreement between horizontal competitors, and there will be
no evidence that the charged conduct was the product
of a joint venture or partnership. Doc. no. 333 at 8. The
government squarely addressed this argument in opposition to defendants’ motion to adjudicate pursuant
to the rule of reason, and defendants have not shown,
even at this juncture, that there would be evidence of
a joint venture in this case. Doc. no. 95 at 4 (“Joint bidding is a specific type of joint venture. It exists when
two or more firms decide to submit a joint bid on a project, agreeing to share in the development, profits, and
losses of the project, because each alone would not be
willing to submit the bid.”) (citing P. AREEDA & H.
HOVENKAMP, ANTITRUST LAW: AN ANALYSIS OF ANTITRUST
PRINCIPLES AND THEIR APPLICATION ¶ 2005 (updated Aug.
2015); Kearney v. Taylor, 56 U.S. 494 (1853) (competition to purchase land was strengthened by the joint
venture because it allowed individuals to pool their resources in order to submit a bid)).
The government’s proposed modifications to the
model ABA Bid Rigging instruction, as given in related
bid rigging trials, are better tailored to the evidence in
this case: referring to “properties sold at the auctions”
rather than “products [services]”; omitting bracketed
instructions that are not relevant; and specifying that

Pet. App. 35
this instruction goes to the first element of the antitrust crime. The government also proposes including
an instruction that a single conspiracy “may involve
several subagreements or subgroups of conspirators,”
which the court approved in Florida I as part of a separate conspiracy instruction, and in Joyce and Guillory.
The government does not propose the bracketed paragraphs of the model ABA instruction that defendants
partially propose in their version of the Bid Rigging instruction. The court notes that the Bid Rigging instruction was given in Florida I, Joyce and Guillory with the
bracketed paragraphs 4 through 7 of the model ABA
Criminal Antitrust Instruction, at 61-62.
The court further notes that defendants did not request a single entity instruction, as given in Florida
and Guillory: “An internal agreement only between
owners and employees of the same company does not
constitute a conspiracy.” Florida I, doc. no. 318 (order
re: request for single entity instruction). See Freeman
v. San Diego Ass’n of Realtors, 322 F.3d 1133, 1147 (9th
Cir. 2003) (holding that the single-entity rule applies
to a company and its officers, employees and wholly
owned subsidiaries; firms owned by the same person;
and principal-agent relationships) (citing Copperweld
Corp. v. Indep. Tube Corp., 467 U.S. 752, 771 (1984)). A
single entity instruction here may address defendants’
concern that the government’s proposed instruction
fails to define who is a competitor and fails to distinguish defendants who work together.
To ensure that the instruction is tailored to the evidence in this case, the court ORDERS the parties to

Pet. App. 36
meet and confer on the applicability of the bracketed
paragraphs of the ABA model Bid Rigging instruction,
indicated in the government’s proposed instruction No.
20, and a single entity instruction.
*

*

*

IT IS SO ORDERED.
Dated: April 28, 2017
/s/ Phyllis J. Hamilton
PHYLLIS J. HAMILTON
United States District Judge

Pet. App. 37
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
UNITED STATES
OF AMERICA,
Plaintiff,
v.
MICHAEL MARR,
JAVIER SANCHEZ, and
GREGORY CASORSO

Case No.
14-cr-00580-PJH-1
ORDER ISSUING FINAL
JURY INSTRUCTIONS;
RULING ON DISPUTED
INSTRUCTIONS
(Filed Jun. 1, 2017)

Defendants.
Having heard argument on the jury instructions
remaining in dispute, including defendants’ supplemental requested jury instructions, doc. no. 286, the
court adopts the instructions jointly submitted by the
parties in doc. no. 256, subject to defendants’ reserved
objections, adding Gregory Casorso’s name to the
bracketed portion of Instruction No. 30 on Defendant’s
Decision to Testify, and tailoring the bracketed portions of Instruction No. 33 on What Is Not Evidence.
The court rules on the disputed instructions for the
reasons stated on the record and as set forth below:
1. Defendants’ first supplemental requested jury
instruction proposes a description of the conspiracy
charges using the language of the indictment. Doc. no.
286 at 1. Having reviewed the instructions and the indictment, the court GRANTS defendants’ request to include a description of the conspiracy as charged in the
indictment because several instructions, including No.

Pet. App. 38
20 on Elements of the Bid Rigging Offenses and No. 21
on Bid Rigging, expressly refer to the conspiracy as
charged or alleged in the indictment. Because the jury
will not be provided with the indictment, these references to the indictment could potentially be confusing
without providing a description of the conspiracy “as
charged” in the indictment. The court overrules the
government’s objections that using the language of the
indictment would be duplicative of the summary of
charges included in Instruction No. 37, and that the
government is not required to prove all the allegations
of the indictment, because the jury will only be required to find the elements of bid rigging, including
“that the conspiracy described in the indictment existed at or about the time alleged.”
Rather than modifying Instruction No. 28 on
Charges Not Evidence – Presumption of Innocence, as
proposed by defendants, the court determines that the
description of the conspiracy as charged in the indictment provides helpful context to the jury in Instruction
No. 20 on Elements of the Bid Rigging Offenses, which
is hereby modified in ¶ 1 as shown below in bold:
Each defendant is charged with one or
two counts of bid rigging, in violation of the
Sherman Act, Section 1 of Title 15 of the
United States Code. One count of the indictment charges the defendants Michael Marr, Javier Sanchez, and Gregory
Casorso with entering into and engaging
in a conspiracy which consisted of a continuing agreement, understanding, and
concert of action among the defendants

Pet. App. 39
and coconspirators to suppress competition by refraining from and stopping
bidding against each other to purchase
hundreds of selected properties at public auctions in Alameda County at noncompetitive prices. Another count of
the indictment charges the defendants
Michael Marr and Javier Sanchez with
entering into and engaging in a conspiracy that consisted of a continuing agreement, understanding and concert of
action among the defendants and coconspirators to suppress competition by refraining from and stopping bidding
against each other to purchase hundreds
of selected properties at public auctions
in Contra Costa County at noncompetitive prices.
[¶] In order to establish the offense of conspiracy to rig bids as charged in the indictment, the government must prove each of
these elements beyond a reasonable doubt:
One, that the conspiracy described in the
indictment existed at or about the time alleged:
Two, that the defendant knowingly became a member of the conspiracy; and
Three, that the conspiracy described in
the indictment occurred within the flow of interstate commerce.
If you find from your consideration of all
the evidence that each of these elements has

Pet. App. 40
been proved beyond a reasonable doubt, then
you should find the defendant guilty.
If, on the other hand, you find from your
consideration of all of the evidence that any of
these elements has not been proved beyond a
reasonable doubt, then you should find the defendant not guilty.
Because the court will give Instruction No. 19 on Per
Se Violations of the Antitrust Laws, the jury will not
be required to find whether the bid rigging conspiracy
resulted in an unreasonable restraint of trade or
whether the prices were actually non-competitive. Pursuant to the court’s earlier rulings that this is a per se
case, no argument as to reasonableness or lack of economic harm will be permitted in closing.
2. Defendants’ requested instruction on Sherman Act Violations is DENIED for the reasons set
forth in Pretrial Order No. 5, in light of the evidence
presented at trial.
3. Defendants’ requested instruction on rounds
is DENIED as argumentative and potentially misleading and confusing; the court adopts the government’s
proposed instruction on rounds, doc. no. 255, which is
hereby designated as Instruction No. 39-A, and will be
renumbered as No. 39 when given to the jury.
4. Defendants’ requested instruction on multiple
conspiracies is DENIED; the court will give the Ninth
Circuit model instruction without modification, as previously ordered.

Pet. App. 41
5. Defendants’ requested instruction on testimony of cooperating witnesses is GRANTED IN PART
to include the individual names of the witnesses in Instruction No. 40, to which the government does not object. Their request to include the third paragraph is
DENIED as duplicative of Instruction No. 42, in light
of defense counsel’s agreement to use the model instructions.
6. Defendants’ request to instruct on an internal
agreement between owners and employees is DENIED
as duplicative of the identical language in Instruction
No. 21 on Bid Rigging, as conceded by defense counsel.
7. Instruction No. 39 on Statements by Defendant has been WITHDRAWN by the government with
no objection by defendants.
The final version of the jury instructions is attached to this order as Appendix 1.
IT IS SO ORDERED.
Dated: June 1, 2017
/s/ Phyllis J. Hamilton
PHYLLIS J. HAMILTON
United States District Judge

Pet. App. 42
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
OAKLAND DIVISION
UNITED STATES
OF AMERICA,

CASE NO.
CR 4:14-00580 PJH

Plaintiff,

FINAL JURY
INSTRUCTIONS

v.
MICHAEL MARR,
JAVIER SANCHEZ, and
GREGORY CASORSO,

(Filed Jun. 1, 2017)

Defendants.
*

*

*

INSTRUCTION NO. 19
PER SE VIOLATIONS OF THE ANTITRUST LAWS
The Sherman Act makes unlawful certain agreements that, because of their harmful effect on competition and lack of any redeeming virtue, are
conclusively presumed to be illegal, without inquiry
about the precise harm they have caused or the business excuse for their use. Included in this category of
unlawful agreements are agreements to rig bids.
Therefore, if you find that the government has met
its burden with respect to each of the elements of the
charged offense, you need not be concerned with
whether the agreement was reasonable or unreasonable, the justifications for the agreement, or the harm,

Pet. App. 43
if any, done by it. It is not a defense that the parties
may have acted with good motives, or may have
thought that what they were doing was legal, or that
the conspiracy may have had some good results. If
there was, in fact, a conspiracy as charged in the indictment, it was illegal.
INSTRUCTION NO. 20
ELEMENTS OF THE BID RIGGING OFFENSES
Each defendant is charged with one or two counts
of bid rigging, in violation of the Sherman Act, Section
1 of Title 15 of the United States Code. One count of
the indictment charges the defendants Michael Marr,
Javier Sanchez, and Gregory Casorso with entering
into and engaging in a conspiracy which consisted of a
continuing agreement, understanding, and concert of
action among the defendants and coconspirators to
suppress competition by refraining from and stopping
bidding against each other to purchase hundreds of selected properties at public auctions in Alameda County
at noncompetitive prices. Another count of the indictment charges the defendants Michael Marr and Javier
Sanchez with entering into and engaging in a conspiracy that consisted of a continuing agreement, understanding and concert of action among the defendants
and coconspirators to suppress competition by refraining from and stopping bidding against each other to
purchase hundreds of selected properties at public
auctions in Contra Costa County at non-competitive
prices.

Pet. App. 44
In order to establish the offense of conspiracy to
rig bids as charged in the indictment, the government
must prove each of these elements beyond a reasonable
doubt:
One, that the conspiracy described in the indictment existed at or about the time alleged:
Two, that the defendant knowingly became a
member of the conspiracy; and
Three, that the conspiracy described in the indictment occurred within the flow of interstate commerce.
If you find from your consideration of all the evidence that each of these elements has been proved beyond a reasonable doubt, then you should find the
defendant guilty.
If, on the other hand, you find from your consideration of all of the evidence that any of these elements
has not been proved beyond a reasonable doubt, then
you should find the defendant not guilty.
INSTRUCTION NO. 21
BID RIGGING
The indictment charges each defendant with one
or two counts of conspiring to rig bids. Under the first
element and for purposes of a violation of the Sherman
Antitrust Act, a conspiracy to rig bids is an agreement
between two or more competitors to eliminate, reduce,
or interfere with competition for something that is to
be awarded on the basis of bids. A conspiracy to rig bids

Pet. App. 45
may be an agreement among competitors about the
prices to be bid, who should be the successful bidder,
who should bid high, who should bid low, or who should
refrain from bidding; or any other agreement with respect to bidding that affects, limits, or avoids competition among them.
The aim and result of every bid-rigging agreement, if successful, is the elimination of one form of
competition.
For a conspiracy to have existed, it is not necessary
that the conspirators made a formal agreement or that
they agreed on every detail of the conspiracy. It is not
enough, however, that they simply met, discussed matters of common interest, acted in similar ways, exchanged information, or perhaps helped one another.
You must find that there was a plan to commit at least
one of the crimes alleged in the indictment as an object
of the conspiracy with all of you agreeing as to the particular crime which the conspirators agreed to commit.
If you should find that a defendant entered into an
agreement to rig bids, the fact that he or his coconspirators did not abide by it, or that one or more of
them may not have lived up to some aspect of the
agreement, or that they may not have been successful
in achieving their objectives, is not a defense. The
agreement is the crime, even if it was never carried out.
An internal agreement only between owners and employees of the same company does not constitute a conspiracy.

Pet. App. 46
Evidence that the defendants and alleged coconspirators actually competed with each other has been
admitted to assist you in deciding whether they actually entered into an agreement to rig bids. If the conspiracy charged in the indictment is proved, it is no
defense that the conspirators actually competed with
each other in some manner or that they did not conspire to eliminate all competition. Nor is it a defense
that the conspirators did not attempt to collude with
all of their competitors. Similarly, the conspiracy is unlawful even if it did not extend to all properties sold at
the auctions during the conspiracy period. A single
conspiracy may involve several subagreements or subgroups of conspirators.
One becomes a member of a conspiracy by willfully
participating in the unlawful plan with the intent to
advance or further some object or purpose of the conspiracy, even though the person does not have full
knowledge of all the details of the conspiracy. Furthermore, one who willfully joins an existing conspiracy is
as responsible for it as the originators.
On the other hand, one who has no knowledge of a
conspiracy, but happens to act in a way which furthers
some object or purpose of the conspiracy, does not
thereby become a conspirator. Similarly, a person does
not become a conspirator merely by associating with
one or more persons who are conspirators, or merely by
knowing that a conspiracy exists.
*

*

*

Pet. App. 47
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNITED STATES
OF AMERICA,
Plaintiff-Appellee,
v.
JAVIER SANCHEZ,
Defendant-Appellant.

UNITED STATES
OF AMERICA,
Plaintiff-Appellee,

No. 17-10519
D.C. No.
4:14-cr-00580-PJH-2
Northern District of
California, Oakland
ORDER
(Filed Apr. 3, 2019)
No. 17-10528
D.C. No.
4:14-cr-00580-PJH-3

v.
GREGORY CASORSO,
Defendant-Appellant.
UNITED STATES
OF AMERICA,
Plaintiff-Appellee,
v.
MICHAEL MARR,
Defendant-Appellant.

No. 18-10113
D.C. No.
4:14-cr-00580-PJH-1

Pet. App. 48
Before: CLIFTON and FRIEDLAND, Circuit Judges,
and ADELMAN,* District Judge.
Judge Friedland has voted to deny the petition for
rehearing en banc, and Judge Clifton and Judge
Adelman so recommend. The full court has been advised of the petition for rehearing en banc, and no
judge has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35.
The petition for rehearing en banc is DENIED.

* The Honorable Lynn S. Adelman, United States District
Judge for the Eastern District of Wisconsin, sitting by designation.

Pet. App. 49
462 F.2d 49
United States Court of Appeals,
Ninth Circuit.
UNITED STATES of America,
Plaintiff-Appellee,
v.
MANUFACTURERS’ ASS’N OF the
RELOCATABLE BUILDING INDUSTRY,
Defendant-Appellant.
UNITED STATES of America,
Plaintiff-Appellee,
v.
MODULUX INC., Defendant-Appellant.
UNITED STATES of America,
Plaintiff-Appellee,
v.
DESIGNED FACILITIES LEASING CO.,
Defendant-Appellant.
UNITED STATES of America,
Plaintiff-Appellee,
v.
VINNELL STEEL, Defendant-Appellant.
UNITED STATES of America,
Plaintiff-Appellee,
v.
SPEEDSPACE CORPORATION,
Defendant-Appellant.
Nos. 72-1037, 72-1038, 72-1029,
72-1051 and 72-1049.
|
June 5, 1972.
|
Rehearing Denied in No. 72-1038 June 27, 1972.

Pet. App. 50
Attorneys and Law Firms
James J. Brosnahan (argued), Carl Hoppe (argued), of
Eckhoff & Hoppe, James R. Madison (argued), Edward
B. Rogin, William H. Orrick, Jr. of Orrick, Herrington,
Rowley & Sutcliffe, San Francisco, Cal., John M. Carmack, of Gill & Baldwin, Los Angeles, Cal., Gordon
Johnson, of Thelen, Marrin, Johnson & Bridges, San
Francisco, Cal., for defendants-appellants.
Robert B. Nicholson (argued), Howard E. Shapiro,
Walker B. Comegys, Acting Asst. Atty. Gen., Washington, D. C., Mark F. Anderson, Marquis L. Smith, San
Francisco, Cal., for plaintiff-appellee.
Before ELY and CARTER, Circuit Judges and FERGUSON, District Judge.*
Opinion
JAMES M. CARTER, Circuit Judge:
In this appeal from convictions by a jury for violation of the antitrust laws and sentences imposing fines,
the defendant corporations make various contentions.
We address ourselves to one contention and affirm.
Appellants contend that the per se rule as to pricefixing, i. e., that price-fixing is per se a violation of the
antitrust laws and that the test of reasonableness has
no application, is in substance the creation of a

* Honorable Warren J. Ferguson, District Judge, Central
District of California, sitting by designation.

Pet. App. 51
conclusive presumption and denies them due process
in a criminal trial.
The use of presumptions in criminal law is limited
by considerations of due process. Rebuttable presumptions which are arbitrary or irrational deny due process. A rebuttable presumption will be regarded as
irrational and arbitrary unless it can be said with substantial assurance that the presumed fact is more
likely than not to flow from the proved fact on which it
is made to depend. Leary v. United States, 395 U.S. 6,
89 S.Ct. 1532, 23 L.Ed.2d 57 (1969); cf. United States v.
Romano, 382 U.S. 136, 86 S.Ct. 279, 15 L.Ed.2d 210
(1965); United States v. Gainey, 380 U.S. 63, 85 S.Ct.
754, 13 L.Ed.2d 658 (1965); Tot v. United States, 319
U.S. 463, 63 S.Ct. 1241, 87 L.Ed. 1519 (1943). And since
the accused is presumed innocent, he has the right to
have each element of the crime charged submitted to
the jury. Conclusive presumptions may not operate to
deny this right. Morissette v. United States, 342 U.S.
246, 72 S.Ct. 240, 96 L.Ed. 288 (1952).1
Appellants’ contention that the per se rule constitutes an unconstitutional conclusive presumption misunderstands the Sherman Act. The Act, in part,
broadly provides that “[e]very contract, combination
1

The standard in non-criminal cases is somewhat different.
Conclusive presumptions which result in arbitrary classifications
are deemed invalid. Schlesinger v. Wisconsin, 270 U.S. 230, 46
S.Ct. 260, 70 L.Ed. 557 (1926). The legislature may not employ
conclusive presumptions to legislate a fact which is at odds with
actualities. Heiner v. Donnan, 285 U.S. 312, 52 S.Ct. 358, 76 L.Ed.
772 (1932).

Pet. App. 52
. . . or conspiracy in restraint of trade or commerce
among the several States . . . is declared to be illegal.” 15 U.S.C. § 1, Act of July 2, 1890, ch. 647, 26
Stat. 209.
In Standard Oil Co. v. United States, 221 U.S. 1,
60-68, 31 S.Ct. 502, 55 L.Ed. 619 (1911), and American
Tobacco Co. v. United States, 221 U.S. 106, 31 S.Ct. 632,
55 L.Ed. 663 (1911), both civil cases, the Supreme
Court interpreted the statute and spelled out the “Rule
of Reason” as a limitation on the broad language of the
Sherman Act,-i.e., that only unreasonable acts in restraint of trade and commerce were within the ambit
of the statute.
In so doing, the Court disclaimed that it was
changing the law as it existed in 1911. In United States
v. American Tobacco Co., supra, the Court stated:
“The obscurity and resulting uncertainty,
however, are now but an abstraction, because
it has been removed by the consideration
which we have given quite recently to the construction of the anti-trust act in the Standard
Oil Case. In that case it was held, without departing from any previous decision of the
court that as the statute had not defined the
words restraint of trade, it became necessary
to construe those words, a duty which could
only be discharged by a resort to reason. We
say the doctrine thus stated was in accord
with all the previous decisions of this court,
despite the fact that the contrary view was
sometimes erroneously attributed to some of
the expressions used in two prior decisions

Pet. App. 53
(the Trans-Missouri Freight Association and
Joint Traffic cases, 166 U.S. 290 [17 S.Ct. 540,
41 L.Ed. 1007] and 171 U.S. 505 [19 S.Ct. 25,
43 L.Ed. 259]). That such view was a mistaken
one was fully pointed out in the Standard Oil
Case and is additionally shown by a passage
in the opinion in the Joint Traffic Case . . (171
U.S. 568, 19 S.Ct. 31). . . .” 221 U.S. at 178-179,
31 S.Ct. at 648.
In 1927 the Court decided United States v. Trenton
Potteries Company, 273 U.S. 392, 47 S.Ct. 377, 71 L.Ed.
700. It sustained a criminal conviction for violation of
the Sherman Act by price-fixing. The Court reviewed
its antitrust holdings both before and after the Standard Oil and American Tobacco Co., supra. The Court
concluded that price-fixing, in the cases decided both
before and after Standard Oil and American Tobacco,
had been held to be a per se violation of the Sherman
Act without consideration of the rule of reasonableness. The Court, citing Thomsen v. Cayser, 243 U.S. 66,
84, 37 S.Ct. 353, 61 L.Ed. 597 and footnoting numerous
lower court cases, pointed out that “the Standard Oil
and Tobacco cases did not overrule the earlier cases”
which held price-fixing to be illegal per se. 273 U.S. at
400, 47 S.Ct. at 380.
In United States v. Socony-Vacuum Oil Co. Inc.,
310 U.S. 150, 60 S.Ct. 811, 84 L.Ed. 1129 (1940), a criminal case, the Court again reviewed its decisions on
price-fixing. It stated:

Pet. App. 54
“Thus for over forty years this Court has consistently and without deviation adhered to
the principle that price-fixing agreements are
unlawful per se under the Sherman Act and
that no showing of so-called competitive
abuses or evils which those agreements were
designed to eliminate or alleviate may be interposed as a defense. And we reaffirmed that
well-established rule in clear and unequivocal
terms in Ethyl Gasoline Corp. v. United States,
309 U.S. 436, 458 [60 S.Ct. 618, 84 L.Ed. 852]
where we said:
‘Agreements for price maintenance of articles
moving in interstate commerce are, without
more, unreasonable restraints within the
meaning of the Sherman Act because they
eliminate competition, United States v. Trenton Potteries Co., 273 U.S. 392, [47 S.Ct. 377,
71 L.Ed. 700] and agreements which create
potential power for such price maintenance
exhibited by its actual exertion for that purpose are in themselves unlawful restraints
within the meaning of the Sherman Act, . . . ’.”
310 U.S. at 218, 60 S.Ct. at 842.2
Thus the Court has interpreted a broad and inclusive statute, and since the earliest days of the Act, has
enunciated two distinct rules of substantive law: (1)
certain classes of conduct, such as price-fixing, are,
2

The latest Supreme Court case considering the per se rule
is United States v. Topco Associates, Inc., 404 U.S. 596, 92 S.Ct.
1126, 31 L.Ed.2d 515 (72), a civil case, involving allocation of territories. The case upholds the allocation as a per se violation, but
is not otherwise pertinent.

Pet. App. 55
without more, prohibited by the Act; (2) restraints
upon trade or commerce which do not fit into any of
these classes are prohibited only when unreasonable.
The first rule, in light of the second, defines certain
classes of pernicious conduct as unreasonable. Roughly
restated, the per se rule establishes a conclusive presumption that certain types of conduct are unreasonable. See, Northern Pac. Ry. Co. v. United States, 356 U.S.
1, 5, 78 S.Ct. 514, 2 L.Ed.2d 545 (1958). This restatement, however, is no more than a pedagogic instrument, since the substantive rules of antitrust are no
more rules of evidence than the substantive rules of
any legal area.
Morissette, supra, is inapposite. The per se rule
does not operate to deny a jury decision as to an element of the crime charged, since “unreasonableness” is
an element of the crime only when no per se violation
has occurred. To put it differently “reasonableness”
must be viewed as a legal term, and not in its ordinary
sense. When the Court describes conduct as per se unreasonable, they do no more than circumscribe the definition of “reasonableness.”
While the appellants deserve credit for their ingenious and novel attempt to trap the Court in its own
rhetoric, their contention that the per se rule should be
set aside must be, and is rejected. The per se rule does
not establish a presumption. It is not even a rule of evidence.
We have reviewed the appellants’ other contentions, including their attack on the sufficiency of the

Pet. App. 56
evidence and the correctness of the instructions and
find no error.
The judgments are affirmed.

